                       Office of Inspector General
            Export-Import Bank of the United States




Actions in Response to the Financial 

      Crisis – Direct Lending 





                                      Evaluation Report
                                     September 30, 2009
                                         OIG-EV-09-02
 Michael W. Tankersley
 Inspector General                Export-Import Bank
                                  of the United States

September 30, 2009

MEMORANDUM

TO:             	Alice Albright
                 Executive Vice President and Chief Operating Officer

                John McAdams 

                Senior Vice President, Export Finance 


FROM: 	         Michael W. Tankersley
                Inspector General

SUBJECT: 	      Evaluation of Export-Import Bank’s Actions in Response to the Financial Crisis –
                Direct Lending

This memorandum transmits Evaluation Report OIG-EV-09-02, Actions in Response to the
Financial Crisis – Direct Lending. This evaluation was initiated by the Office of Inspector
General (“OIG”) of the Export-Import Bank of the United States (“Bank”) to determine whether
the Bank’s Direct Lending Program was responsive to the international financial crisis and to
identify conditions that might restrain the Bank’s ability to respond to increased demand for
direct loans.

The evaluation found that the Bank responded to the financial crisis by expanding its direct
lending activity, enhancing its products and adopting innovative structures to respond to the needs
of U.S. exporters. However, improvements to the Bank’s processes would enhance the Bank’s
ability to respond to the current and future financial crises. We made four suggestions to
strengthen the Bank’s ability to assess the demand for direct loans as a result of a financial crisis
and further enhance the Bank’s performance and internal controls. Management generally
concurred with the suggestions.

We appreciate the courtesies and cooperation provided to the auditors during the audit. If you
have any questions, please call me at (202) 565-3923 or Jean Smith at (202) 565-3944.




cc: 	Joseph Sorbera, Vice President, Office of the Controller/Audit Liaison
    Jonathan Cordone, General Counsel




                   811 Vermont Avenue, N.W. Washington, D.C. 20571
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report

I. EXECUTIVE SUMMARY

Purpose

The Office of Inspector General (OIG) conducted an evaluation of actions taken by the Export-
Import Bank of the United States (Ex-Im Bank or the Bank) since October 1, 2008 with the
objectives of: (1) assessing the demand for direct loans from Ex-Im Bank by U.S. exporters and
foreign purchasers of U.S. goods as a result of the international financial crisis; (2) identify the
actions taken by Ex-Im Bank to utilize the liquidity provided by its U.S. Treasury funding to fill
gaps in response to the international financial crisis; and (3) identifying conditions that might
restrain the Bank’s ability to respond to increased demand for direct loans and recommend actions
to respond to those conditions. Management’s response to this report appears as Appendix C.

Ex-Im Bank was created in 1934 specifically to address the long-running crisis in international
trade and finance that was a central feature of the Great Depression. This report finds the Bank
confronting the most significant international contraction of international trade and finance since
that time. The Bank’s mission is to support U.S. jobs by providing or facilitating financing for
U.S. exports in cases where the private sector is unable or unwilling to provide financing, or when
necessary to level the playing field for U.S. exporters facing foreign competition aided by
financing provided by foreign governments. Because the Bank’s management considered the
Bank to be reasonably well structured and provisioned with sufficient lending authority to
respond to significantly increased demand in the current environment, no additional funding or
other legislative action was requested for Ex-Im Bank when Congress considered and passed the
American Recovery and Reinvestment Act of 2009 in March of this year.

Results

Our evaluation showed that demand for direct lending from Ex-Im Bank had increased
significantly and that the Bank responded to the financial crisis by expanding its direct lending
activity, enhancing its products and adopting innovative structures to respond to the needs of U.S.
exporters. Between October 1, 2008 and June 30, 2009, the volume of direct loans authorized by
Ex-Im Bank increased to $3.1 billion from $12 million during the same period of the preceding
fiscal year. Ex-Im Bank is providing a competitive advantage to U.S. exporters in the current
environment because it can draw on U.S. Treasury funding; competing export credit agencies in
other countries that have been privatized generally do not have this ability. Total authorizations
for the nine months ended June 30, 2009 were $14.7 billion, compared with $7.7 billion in the
prior period. Additionally, although not part of the direct loan program, Ex-Im Bank also made
modifications to its Working Capital Guarantee Program requirements for letters of credit, and
increased delegated authority limits to provide additional support to U.S. exporters, including
small businesses during the financial crisis.

We concluded that while the above actions were responsive to the international financial crisis
and consistent with the Bank’s mission, opportunities exist to further improve the Bank’s ability
to respond to the current and future financial crises in the following areas:


                                                 i                    Office of Inspector General
                                                                          Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending               OIG-EV-09-02
                                       Evaluation Report
   •	 Management’s ability to monitor and respond to market demand for particular services,
      such as the demand for direct lending during the current financial crisis, is limited because
      the Bank does not collect relevant and available data in a systematic and comprehensive
      manner. The absence of relevant data makes it difficult to assess the extent of the Bank’s
      success in responding to increased demand for particular services or the impact of policy
      requirements applicable to Ex-Im Bank supported transactions such as the use of U.S.-flag
      ocean vessels for international shipment of the exported goods and limitations on foreign
      content in Ex-Im Bank supported transactions, among others.

       Suggestion 1: The Bank’s management should identify and begin to systematically collect
       data that will support more thorough assessment of demand for the Bank’s support and the
       effectiveness of the Bank’s actions in responding to that demand.

       Management’s response: Management concurred with this suggestion while noting that
       limited resources would present challenges in effecting it.

   •	 The Bank does not have in place a formal policy defining the substantive and procedural
      requirements that must be met to support the adoption of material policies, the launch of
      new products or material changes in existing products. This circumstance increases the
      risk of mistakes, omissions, poor execution and unexpected adverse developments when
      actions with significant policy and risk implications are taken.

       Suggestion 2: The Bank should develop and adopt a formal written policy that provides a
       framework for the enactment of material policies, the launch of new products and material
       changes in existing policies and products that assures that all material business,
       operational, financial, legal and policy considerations, including a comprehensive risk
       analysis, are taken into account, and those determinations reasonably documented.

       Management’s response: While management noted that the process for approving new
       products and modifications to existing products is well understood today, management
       concurred that there is value in developing a consistent procedure, which it intends to
       develop.

   •	 Ex-Im Bank does not have a documented plan in place to guide the Bank’s response to the
      current financial crisis or other possible economic emergencies that might arise in specific
      locales around the world or more broadly. Ex-Im Bank’s management has relied upon
      consultation among senior management and with the Board of Directors and the Bank’s
      customers and trade groups, the development of specific ad hoc project teams and
      institutional memory to guide management’s actions to address the current financial crisis.
      The absence of a crisis response plan can have several negative consequences. It increases
      the time required to identify and plan actions that the Bank should take to provide
      additional support to U.S. exporters and export credit lenders in response to a financial
      crisis. It also increases the risk that opportunities will be missed or mistakes will be made
      in the course of executing the Bank’s response.


                                                ii	                  Office of Inspector General
                                                                         Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                 OIG-EV-09-02
                                       Evaluation Report
       Suggestion 3: The Bank’s management should develop a crisis response plan that is
       informed by the Bank’s experience in responding to the current and prior economic crises.

       Management’s response: Management declined to act upon this suggestion, noting that
       developing a crisis response plan would be difficult for Ex-Im Bank because the Bank, by
       design, operates in a responsive mode, reacting to events in the international export credit
       markets.

       Evaluator’s comment: We respectfully differ with management’s perception of the utility
       and value of making a written record of the insights that have guided its response to the
       current financial crisis and the “lessons learned” in the process of responding.

Based on the limited resources of the OIG available for this evaluation, and the lack of
comprehensive data to support further analysis as noted above in support of Suggestion 1, we
determined to examine more closely the effect of one policy mandate that has been cited by
exporters as limiting the effectiveness of Ex-Im Bank support for U.S. exports – the requirement
for use of U.S.-flag ocean vessels to ship U.S. goods in transactions receiving Ex-Im Bank
support. The administration of this requirement is overseen by the U.S. Maritime Administration
(MARAD), a part of the U.S. Department of Transportation.

   •	 Our evaluation disclosed that Ex-Im Bank and MARAD have both found that while the
      majority of transactions subject to the U.S.-flag shipping requirement have successfully
      used U.S.-flag ocean vessels to make foreign deliveries, a significant number of U.S.
      exporters and their foreign buyers have had difficulty and have expressed strongly
      negative views of the impact of the requirement. The publicly available information
      regarding this requirement provided by Ex-Im Bank and MARAD on their websites did
      not present a complete, balanced and optimally useful description of the actions Ex-Im
      Bank supported exporters and foreign buyers should take to most effectively manage the
      process. Ex-Im Bank and MARAD each reported differing views of some aspects of the
      requirement, infrequent communications, instances of misunderstandings of the U.S.-flag
      shipping requirements among Ex-Im Bank staff and an absence of joint efforts to make the
      process of securing U.S.-flag shipping for U.S. exporters more efficient.

       Suggestion 4: Ex-Im Bank should follow up its December 2008 discussion with MARAD
       officials to improve communications with MARAD and the understanding of Ex-Im Bank
       staff and exporters relative to the efficient management of U.S.-flag shipping
       requirements. Ex-Im Bank should designate a liaison to guide this process and assure a
       more consistently used and available line of communication with MARAD.

       Management’s response: Management stated that it supports this suggestion and notes
       that it has, and will continue to, identify and discuss MARAD and other constraints with
       the interested groups.

Conclusion. We believe that while Ex-Im Bank has significantly expanded and modified its
programs to aid U.S. exporters and export credit providers in responding to the international
financial crisis, the conditions identified above may have limited the Bank’s ability to achieve the
                                                 iii	                 Office of Inspector General
                                                                           Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                   OIG-EV-09-02
                                       Evaluation Report
most prompt and effective possible response. As noted above, the data required to support a
deeper analysis of this question were not available. Collecting that data was determined to be
outside of the available resources of this office. We believe that the Bank’s adoption of the
suggestions made in this report will increase the Bank’s effectiveness in responding to the
remainder of the current financial crisis and to future crises that emerge.

As an example of the benefits of adopting the suggestions made in this report, consider the
suggestion appearing in the 2008 Competitiveness Report that the Bank should find ways to
reduce the impact of some of the requirements for obtaining Ex-Im Bank support, such as the
U.S.-flag shipping requirements, in order to expand its support of U.S. exporters that have seen
the availability of private sector financing contract precipitously. It is outside the scope of this
report to recommend whether any changes in the application of these requirements should be
made. That being said, Ex-Im Bank’s ability to actively consider taking such action, to consult
with affected constituencies, Congress and the White House, and to propose and execute
significant legislative or policy changes to respond to the financial crisis appears to have been
limited by the cited conditions.

Any action by the Bank to seek to modify or waive application of a law or policy such as the
U.S.-flag shipping or U.S. content requirements in response to the financial crisis is likely to draw
serious questions, if not outright opposition, from the groups most interested in supporting those
requirements. Thoughtful evaluation and debate of arguments on both sides of the question
would be significantly aided by the availability of timely, relevant, reliable data. As noted above,
the Bank has not collected most of the sorts of data that would be most useful in addressing
difficult policy questions of this nature.

The potential need to modify or waive policy requirements such as the use of U.S.-flag shipping
in order for the Bank to most directly replace lost private sector sources of export credit is a
foreseeable part of most financial crises, including the current one. A comprehensive crisis
response plan like that recommended in this report should address the potential that the Bank’s
management, the White House and Congressional oversight committees would need to
immediately begin considering the need for changes in law or policy when a crisis strikes, and
should identify the process by which those actions are developed.

The availability of a pre-prepared crisis response plan will allow management to begin working
sooner, with greater assurance, and with less of a need for spontaneous leadership. A key
challenge faced by the Bank in dealing with the current financial crisis has been that its initial
response had to be developed during a presidential transition period, which typically diminishes
the range of discretionary executive and Congressional action that is available to address fast-
developing problems. The Bank was also challenged by the fact that its Chairman and President
and General Counsel were requested by the Treasury Department to provide leadership for the
Troubled Asset Relief Program (TARP), full-time commitments, commencing in October 2008
and continuing until the Bank’s new Chairman and President was confirmed in May 2009. A
prepared crisis response plan would make it less likely that these sorts of events might dilute or
delay the Bank’s ability to mount a prompt response.



                                                  iv                    Office of Inspector General
                                                                             Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report
The Bank’s limited engagement with MARAD, and the limited information on U.S.-flag shipping
requirements available to potential new users of Ex-Im Bank support from the relevant web
pages, may each contribute to a less effective response for struggling U.S. exporters during a
financial crisis. The Bank’s limited working relationship with MARAD also might make it more
difficult for the two agencies to jointly evaluate and agree on any temporary modification to U.S.-
flag shipping requirements that appeared advisable in order to respond to specific market failures
resulting from the financial crisis.

The suggestions made in this report are not a panacea – they will not guarantee that the Bank will
respond with maximum effectiveness to this or future financial crises affecting U.S. exporters and
export credit providers. We do believe that thoughtful implementation of these actions can make
important contributions by facilitating the ability of the Bank’s management to respond to adverse
developments promptly and effectively.

Management’s response: Management states that in summary, they believed that Ex-Im Bank
was as well prepared as could be expected to respond to the international financial crisis. It is
agreed that there is room to improve Ex-Im Bank’s data gathering and management will review
what options are available with regard to data gathering, recognizing that the Bank has staffing
and financial constraints. Consistent with the suggestion to maintain a dialogue with MARAD,
management noted that they are in the process of scheduling a meeting with MARAD.




                                                 v                    Office of Inspector General
                                                                          Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                                                  OIG-EV-09-02
                                       Evaluation Report

                                                        TABLE OF CONTENTS

I. EXECUTIVE SUMMARY............................................................................................................ I

II. BACKGROUND .........................................................................................................................1 

III. OBJECTIVES ............................................................................................................................8 

IV. SCOPE AND METHODOLOGY..............................................................................................8 

V. FINDINGS AND SUGGESTIONS.............................................................................................9 

     A.DEMAND FOR DIRECT LENDING BY EX-IM BANK..................................................... 9 

     B.INCREASED EX-IM BANK AUTHORIZATIONS AND DIRECT LENDING IN 

       RESPONSE TO THE FINANCIAL CRISIS ......................................................................... 9 

     C. OPPORTUNITIES TO FURTHER ENHANCE EX-IM PERFORMANCE AND 

        INTERNAL CONTROLS .................................................................................................... 17 

         OBJECTIVE 1: ASSESS THE DEMAND FOR DIRECT LOANS FROM EX-IM BANK BY U.S.

         EXPORTERS AND FOREIGN PURCHASERS OF U.S. GOODS AS A RESULT OF THE 

         INTERNATIONAL FINANCIAL CRISIS. .....................................................................................17 

         Suggestion 1: ........................................................................................................................17 

         Management Response:........................................................................................................17 


         OBJECTIVE 2: IDENTIFY THE ACTIONS TAKEN BY EX-IM BANK TO UTILIZE THE LIQUIDITY 

         PROVIDED BY ITS U.S. TREASURY FUNDING TO FILL GAPS IN RESPONSE TO THE 

         INTERNATIONAL FINANCIAL CRISIS........................................................................................19                     

         Suggestion 2: ........................................................................................................................19 

         Management Response:........................................................................................................19 

         Suggestion 3. ........................................................................................................................21 

         Management Response:........................................................................................................21 

         Evaluator’s Comment:..........................................................................................................21 


         OBJECTIVE 3: IDENTIFY CONDITIONS THAT MIGHT RESTRAIN THE BANK’S ABILITY TO 

         RESPOND TO INCREASED DEMAND FOR DIRECT LOANS AND RECOMMEND ACTIONS TO 

         RESPOND TO THOSE CONDITIONS. ..........................................................................................23                    

         Suggestion 4: ........................................................................................................................23 

         Management Response:........................................................................................................23 


Appendix A – U. S. Shipping Requirements – Ex-Im Bank Internet Disclosures .........................29 

Appendix B – U. S. Shipping Requirements – MARAD Internet Disclosures ..............................32 

Appendix C – Management Response............................................................................................36 





                                                                      vi                             Office of Inspector General
                                                                                                            Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                  OIG-EV-09-02
                                       Evaluation Report

II. BACKGROUND
The Bank was established in 1934, in the depths of the Great Depression, to help address the
paucity of available credit to finance U.S. exports as a result of the international financial crisis
existing at that time. The Bank’s insurance and guarantee obligations are backed by the full faith
and credit of the U. S. government. Ex-Im Bank’s direct access to funding from the U.S.
Treasury insulates it from adverse developments in U.S. and international credit markets,
allowing it to continue to fund export credit transactions for which there is a reasonable
likelihood of repayment at times when private sector lenders and exporters are unable to obtain
credit from conventional sources. Ex-Im Bank has responded with significantly increased credit
support for foreign buyers of U.S. exports in a variety of financial crises since its founding.

The Bank is a “self-sustaining” federal agency – it is funded by positive net cash receipts
(insurance and guarantee premiums and interest collected less reserves for potential credit losses
and administrative expenses). Cash requirements are funded by borrowings from the U.S.
Department of the Treasury. Under the terms of the Federal Credit Reform Act of 1990, the
Bank is required to set aside cash reserves for each credit transaction it supports, whether
structured as a guarantee, insurance or a direct loan, based on the Bank’s loss experience with the
specific type of transaction and borrower. The adequacy of the Bank’s cash reserves are
evaluated each year and adjusted up or down to take account of increases or decreases in the
perceived risk of default.

In recent years Ex-Im Bank’s cash receipts have exceeded its expenditures, allowing it to return
significant amounts to the Treasury. Congress does not appropriate the Bank’s annual funding,
but does exercise oversight and control by setting annual limits on the Bank’s use of funds for
program (credit transaction reserves) and administrative expenses. See the notes to the financial
statements and related Management’s Discussion and Analysis included in the Bank’s 2008
Annual Report (http://www.exim.gov/about/reports/ar/ar2008/ExIm_AR.08_.html# ) for
additional information.

Prior to the current financial crisis, Ex-Im Bank has provided support for export financing of
U.S. goods primarily through guarantees and insurance that protect private sector lenders and
exporters from financial loss on their export loans and receivables. Ex-Im Bank relies on these
lenders and exporters to handle most of the administrative requirements in insurance and
guarantee transactions, including effecting cash disbursements and receipts and monitoring the
borrower until the credit is repaid or defaults. At the time of a default, Ex-Im Bank pays the
amount due to the insured or guaranteed lender or exporter and takes over administration and
collection of the export credit. It is a policy objective of Ex-Im Bank to encourage broad
participation in its export credit programs by lenders and exporters, and it relies on them to
generate a significant portion of its export credit transactions. The Bank has the authority to
make direct loans, and has done so in a small number of cases in recent years, but has
emphasized its guarantee and insurance products. This model has allowed Ex-Im Bank to
maintain a small administrative staff relative to the volume of transactions it supports.




                                                 1                    Office of Inspector General
                                                                           Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report

Export Credit Products Offered by Ex-Im Bank
Ex-Im Bank’s support for U.S. exports is offered through four primary product categories: direct
loans, loan guarantees, working capital guarantees and export credit insurance. Products are also
differentiated as short-term, medium-term or long-term based on the length of maturity of the
repayment obligation. The Bank’s credit exposure is generally limited to 85% of the value of the
exported good, with the buyer being obligated to fund 15% of that value.
Direct Loans – Ex-Im Bank makes a loan to a foreign buyer to purchase U.S. exports. Ex-Im
Bank loan disbursements go directly to the U.S. exporter as the export products are shipped to
the foreign buyer. The foreign buyer signs a note payable to Ex-Im Bank obligating it to repay
the principal and interest.

Loan Guarantees – Ex-Im Bank guarantees to a U.S. or foreign lender that makes a loan to a
foreign buyer to purchase U.S. exports that, if the foreign borrower defaults, the Bank will pay to
the lender the outstanding principal and interest on the loan. Ex-Im Bank charges the borrower a
fee to guarantee the loan in a variable amount based on the duration, amount and risk
characteristics of the transaction.

Working Capital Guarantees – Ex-Im Bank guarantees to a U.S. or foreign lender that makes a
working capital loan to a U.S. exporter that if the exporter defaults, the Bank will pay to the
lender the outstanding principal and interest on the loan that is attributable to goods held for
export. Ex-Im Bank charges the borrower a fee to guarantee the loan based on the duration,
amount and risk characteristics of the transaction.

Export Credit Insurance – Ex-Im Bank issues an insurance policy to a U.S. exporter that provides
credit to a foreign buyer of the exporter’s products. If the foreign borrower defaults, the Bank
will pay to the exporter the outstanding balance owed by the foreign buyer. Ex-Im Bank charges
the exporter an insurance premium in a variable amount based on the duration, amount and risk
characteristics of the transaction.

Ex-Im Bank’s Charter calls for an emphasis on supporting small business exporters. New
authorizations for direct small-business exports in FY 2008 totaled $3.2 billion (22.2 percent of
total authorizations). New small-business authorizations in FY 2007 totaled $3.4 billion (26.7
percent of total authorizations). In FY 2008, Ex-Im Bank authorized 2,328 transactions (86.1%
of the total) that were made available for the direct benefit of small-business exporters, compared
to 2,390 small business transactions in FY 2007 (85.6% of the total).


Congressional Mandates Impacting Ex-Im Bank Transactions

When the Bank considers an application for financing support of a U.S. export transaction, it
must also consider the requirements of several competing Congressional mandates (described
below) that can operate in opposition to the Bank’s mission of advancing U.S. employment
through exports (Congressional Mandates). These Congressional Mandates, all of long-standing,
are not applicable to export financing obtained by U.S. exporters purely from private sector

                                                 2                   Office of Inspector General
                                                                         Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                             OIG-EV-09-02
                                       Evaluation Report
sources, nor are foreign export credit agencies that compete with Ex-Im Bank by providing credit
to support exports by their nations generally subject to comparable requirements. The potentially
conflicting effects of the Congressional Mandates on the competitiveness of Ex-Im Bank
financing and U.S. exports have been analyzed in detail in Ex-Im Bank’s Annual Reports to
Congress on Export Credit Competition, of which the most recent, relating to FY 2008, was
published in June 2009 (2008 Competitiveness Report).1

Requirement to Use U.S. Flag Shipping – In Title 46 U.S.C. 55304 (sometimes referred to as
Public Resolution (PR) 17), passed as a joint resolution in 1934, Congress states:

    It is the sense of Congress that any loans made by an instrumentality of the United States
    Government to foster the exporting of agricultural or other products shall provide that the
    products may be transported only on vessels of the United States unless, as to any or all of
    those products, the Secretary of Transportation, after investigation, certifies to the
    instrumentality that vessels of the United States are not available in sufficient number, in
    sufficient tonnage capacity, on necessary schedules, or at reasonable rates.

While not having the force of a statutory requirement, the policy objective of PR 17 has been
observed to varying degrees by Ex-Im Bank and other U.S. government agencies over the
intervening years.2 PR 17, sometimes referred to as a “cargo preference” requirement, is
administered by the U.S. Maritime Administration of the Department of Transportation
(MARAD). Ex-Im Bank’s policy statement regarding U.S.-flag shipping requirements appears
on its webpage, a copy of which is attached as Appendix A to this Report. MARAD’s policy
statement regarding U.S.-flag shipping requirements appears on its webpage, a copy of which is
attached as Appendix B to this Report. These are the principal statements of each agency that
provide guidance to exporters and foreign buyers considering applying to Ex-Im Bank for
support.

Ex-Im Bank and MARAD have expressed a number of disagreements over the precise scope of
the cargo preference requirements applicable to transactions supported by Ex-Im Bank. Ex-Im
Bank has undertaken to follow the policy described below in compliance with its reading of PR
17. MARAD has also from time to time asserted that Ex-Im Bank supported transactions are
subject to the Cargo Preference Act of 1954 (Title 46 U.S.C. 55305) (1954 Act). The 1954 Act
is an affirmative law, not a statement of Congressional intent. Ex-Im Bank has consistently
maintained that its transactions are not subject to the 1954 Act and that the policies described
below do not reflect its application.




1
  http://www.exim.gov/about/reports/compet/documents/2008_competitiveness_report.pdf
2
 PR-17 and other cargo preference legislation aim to support the U.S.-flagged commercial fleet which serves as an
important national security asset during times of war or national emergency. From the perspective of U.S. exporters,
however, cargo preference requirements can make U.S. goods less competitive relative to foreign goods because
foreign exporters have no shipping requirements and U.S.-flagged vessels generally charge higher rates than their
foreign competitors.
                                                         3                       Office of Inspector General
                                                                                      Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report
Current Ex-Im Bank policy states that a provision will be included in the terms of Ex-Im Bank
supported transactions specifying that exported goods requiring ocean transport must be shipped
on American flag ocean vessels in the following categories of transactions:3

      1.	 Direct loans regardless of term or amount; and
      2.	 Guarantees in excess of $20 million (excluding Ex-Im Bank exposure fee) and having a
          repayment period of greater than seven (7) years.
The following transactions are described in Ex-Im Bank policy as not subject to the provisions of
PR 17:
      1.	 Credit guarantee facilities, regardless of amount;
      2.	 Short-term insurance, regardless of amount;
      3.	 Medium-term insurance, regardless of amount or term;
      4.	 Guarantees of up to $20 million (excluding Ex-Im Bank exposure fee) and having a
          repayment period of seven (7) years or less; and
      5.	 Guarantees of up to $20 million under the Bank’s Environmental Exports Program,
          Transportation Security Export Program or Medical Equipment Initiative, regardless of
          term.

By contrast, MARAD’s website4 states its view of the application of PR 17 as follows:

      What percent of cargo is required to be carried on U.S.-flag vessels?
            •	 Export Import Bank = 100% (governed by Public Resolution 17);
            •	 Civilian Agencies Cargo = at least 50% (governed by Cargo Preference Act of
                1954); and
            •	 Agricultural Cargoes = at least 75% (governed by the Food Security Act of 1985).


MARAD monitors shipping rates, routes and cost structures of U.S. flag shipping and responds
to requests for waivers of U.S. shipping requirements contemplated by PR 17 when “. . . vessels
of the United States are not available in sufficient number, in sufficient tonnage capacity, on
necessary schedules, or at reasonable rates.” See 2008 Competitiveness Report, Section E, for
additional information on this requirement.

Limitation of Foreign Content – It has long been the policy of Ex-Im Bank to decline to finance
foreign content in export transactions.5 Foreign content refers to components, goods and




3
    Ex-Im Bank’s policy appears in Appendix A to this report.
4
    See Appendix B.
                                                          4	         Office of Inspector General
                                                                         Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                              OIG-EV-09-02
                                       Evaluation Report
services included in a U.S. export transaction that originate in countries other than the U.S. or the
foreign buyer’s country. For example, if a transaction includes 70 percent U.S. content and 30
percent foreign content, Ex-Im Bank policy limits its financing support to the 70 percent value of
the U.S. content, thereby requiring the buyer to obtain alternative financing for the 30 percent of
foreign content value of the transaction. See 2008 Competitiveness Report, Chapter 6, Section
C, for additional information on this requirement.

Limitation on Local Costs – Local costs are costs related to a U.S. export transaction that are
incurred in the foreign buyer’s market. Under guidelines established by the Organisation for
Economic Cooperation and Development (OECD), Ex-Im Bank can cover up to 30% of the U.S.
export transaction value in local costs in long-term transactions (e.g., projects). However,
medium-term transactions can only obtain local cost support if the exporter meets requirements
specified by the OECD (e.g., confirmation that a competitor is benefiting from officially
supported local cost cover or financing for such costs would be difficult to obtain locally). See
2008 Competitiveness Report, Chapter 6, Section D, for additional information on this
requirement.

Review of Economic Impact on U.S. Economy – Section 2(e) of the Bank’s Charter requires that
the Bank analyze any adverse impact that might result for the U.S. economy from a proposed Ex-
Im Bank supported transaction where the exported goods will result in an increase in foreign
production of a product that will then compete with U.S. produced products. If the economic
impact evaluation yields a net negative finding, that can be a basis for withholding Ex-Im Bank
financial support. Transactions involving less than $10 million of Ex-Im Bank support are
generally not subject to economic impact review. While only a small number of transactions in
any given year are subjected to a full economic impact review, those that are require public
notice and substantial effort by the Bank’s staff which can require several months to complete.
See 2008 Competitiveness Report, Chapter 6, Section B, for additional information on this
requirement.

Environmental Review – Section 11 of Ex-Im Bank's Charter authorizes the Board of Directors to
grant or withhold financing support after taking into account the beneficial and adverse
environmental effects of proposed transactions. Ex-Im Bank's objective is to maintain U.S.
exporters' competitiveness in the global marketplace while ensuring that the projects it supports are
environmentally responsible. The Bank has established Environmental Procedures and Guidelines
which identify supplemental reporting and review requirements applicable to transactions in
industrial sectors subject to an increased potential for harm to the environment, which are
evaluated by the Bank’s Engineering and Environment Division. These policies are described on
Ex-Im Bank’s website at: www.exim.gov/products/policies/environment/envproc.cfm .

Congressional Notification – Section 2(b)(3) of the Bank’s Charter requires that prior written
notice be provided to Congress of proposed transactions (i) in an amount which equals or
5
  Section 2(b)(1)(A) of the Charter provides the basis for this longstanding policy determination by the Bank: “It is
the policy of the United States to foster expansion of exports of manufactured goods, agricultural products, and other
goods and services, thereby contributing to the promotion and maintenance of high levels of employment and real
income, a commitment to reinvestment and job creation, and the increased development of the productive resources
of the United States.”
                                                          5                       Office of Inspector General
                                                                                       Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report
exceeds $100,000,000 or (ii) for the export of technology, fuel, equipment, materials, or goods or
services to be used in the construction, alteration, operation, or maintenance of nuclear power,
enrichment, reprocessing, research, or heavy water production facilities. This requirement is
counter to the confidentiality that parties to significant privately funded transactions would
ordinarily expect to apply in the early stages of negotiation and documentation.

Recent Events

The global financial crisis that erupted in 2008 negatively impacted the liquidity of U.S. and
foreign banks that have provided the vast majority of export credit to U.S. exporters. As a result,
Ex-Im Bank received increased requests for support from companies that in the past were served
by private banks and other export credit providers, and in particular, requests for direct loans.
These circumstances are described in the summary of the Bank’s discussions with a focus group
of exporters and lenders consulted during the preparation of the 2008 Competitiveness Report:

     Exporters and lenders alike characterized 2008 as a schizophrenic year with the last quarter
     marked by the demise of Lehman Brothers as a key turning point. The pipeline of most
     lenders was strong going into 2008 because of the weak dollar and healthy liquidity. By
     the mid-year mark, the markets were less than sanguine and by October, their outlooks had
     dimmed considerably. Lenders were either not able to finance anything, much less cross
     border risk transactions, or were quite limited in their capacity with only the best
     relationship customers able to obtain financing. Hampered by their own balance sheets and
     more rigid internal capital constraints by year end the lenders were very cautious and
     anxious about their own organizations’ viability, and showed serious concern about their
     continued engagement in trade finance and export credit financing. While there was
     activity, the nature of that activity had changed dramatically during the year: deals that
     previously would not have needed export credit agency (ECA) support began turning to
     ECAs due to lenders’ apprehensions or limited liquidity.

     In addition, lenders who have not historically dealt with Ex-Im in the past began coming to
     Ex-Im because it could provide protection in this risky and highly volatile environment
     and, “it is the U.S. government.” Ex-Im, as other ECAs, have become critical and
     necessary in virtually all medium and long term cross-border risk transactions. However,
     lenders warned Ex-Im not to attribute the demand for Ex-Im’s services to high quality
     service, because Ex-Im’s “warts have not gone away.” Moreover, the same challenges that
     have plagued Ex-Im Bank and its competitiveness (e.g., content, MARAD, risk aversion)
     are still there, but now they have to be dealt with if U.S. companies are going to benefit. In
     the words of one lender, “Ex-Im has not ‘met’ the world but instead the world has ‘met’
     Ex-Im.” If possible, lenders who deal with multinationals or companies in other countries
     will still opt for non-U.S. sourcing and non-U.S. ECA support.

     Finally, lenders noted that ECAs operating in Europe have been given a priority status by
     their governments who have singled out the ECAs and the roles they should fill in times of
     financial crisis. In particular, Troubled Asset Relief Program-like facilities have been set
     up by their respective governments and the ECAs seem to be using them proactively and
     aggressively.
                                                 6                   Office of Inspector General
                                                                         Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                         OIG-EV-09-02
                                       Evaluation Report

      Exporters mirrored the same concerns expressed by the lenders but also believe that they
      have the “ECA direct loan option” as the last resort if commercial lenders could not or
      were not able to participate on reasonable terms, noting that pricing had spiked
      considerably in the private market when it was available. While most of 2008 yielded
      export sales levels as good as 2007, the latter part of the year had exporters ratcheting their
      sales projections downward. Deals that had once been assumed would go forward were
      either put on hold indefinitely, cancelled altogether or were being re-evaluated by private
      lenders as to creditworthiness and often-times being re-priced (higher), given the limited
      amount of liquidity (or complete lack of) in the market. Thus, between limited lending
      availability and foreign buyers cancelling or postponing sales, exporters were not
      optimistic about their export prospects going forward. As one exporter put it, they were
      “running full speed but then hit a wall in the 4th quarter and came to an abrupt stop.”

      In looking ahead, participants agreed that customers are currently anticipating relatively
      higher levels of financing from Ex-Im Bank. However, the participants were mindful to
      explain that the higher demand for Ex-Im Bank products is not because ExIm’s
      competitiveness and responsiveness are so great – which they are not. Rather, the
      increased utilization reflected a clear need for government intervention. Without active
      engagement by the government sector, neither credit nor trade will flow, and the economy
      and its exporters will suffer.

The 2008 Competitiveness Report was reviewed by the Bank’s Advisory Committee.6 Among
the conclusions stated in their written response to the report were the following:

      Ex-Im Bank’s role and mission are clear: support U.S. jobs through providing financing
      that is competitive with our ECA counterparts when the private sector is unwilling or
      unable to be involved. Never has the need for Ex-Im Bank been greater and accordingly,
      the Bank needs to diligently and thoughtfully pursue approaches and practices that are
      proactive, supportive of its mission and mandate, and are relevant to its exporting
      constituency.

      This directive may require Ex-Im Bank to reconsider if and how it is fulfilling its
      fundamental role as a Lender/Insurer of Last Resort and to modify its thinking and ways to
      manage risk differently and better. Or it may require other issues be taken into account. In
      any event, an opportunity to undertake a wholesale review of how its programs and
      approaches actually fit the Bank’s core mandates has been presented – an opportunity we
      hope the Bank will avidly pursue.



6
  The Bank’s Advisory Committee helps Ex-Im Bank review policies and programs by providing input from various
sectors of the economy. The Advisory Committee holds quarterly meetings; its primary task is to advise the Bank
concerning its programs, especially with respect to competitiveness. The members of the Advisory Committee are
identified on the Bank’s website at: http://www.exim.gov/about/leadership/advisory.cfm.


                                                       7                      Office of Inspector General
                                                                                  Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                     OIG-EV-09-02
                                       Evaluation Report
     The Advisory Committee therefore, urges the Bank to seize this opportunity at a time in
     which the ECA world has come to a standstill to meet the economic and financial
     challenges that the current crisis has created. The Bank has outstanding human resources
     and capabilities that could be brought to bear to address these monumental issues. Once
     the crisis has abated, our ECA counterparts will presumably be getting “back to business.”
     If Ex-Im Bank has not taken this moment in its history to recreate itself in a manner fitting
     of the U.S., the country, our exporting community, and U.S. jobs will suffer.


III. OBJECTIVES
The objectives of the evaluation were to:

 • Assess the demand for direct loans from the Bank by U.S. exporters and foreign purchasers of
   U.S. goods as a result of the international financial crisis;

 • Identify the actions taken by Ex-Im Bank to utilize the liquidity provided by its U.S. Treasury
   funding to fill gaps in response to the international financial crisis; and

 • Identifying conditions that might restrain the Bank’s ability to respond to increased demand
   for direct loans and recommend actions to respond to those conditions.


IV. SCOPE AND METHODOLOGY
The scope of the evaluation focused on actions Ex-Im Bank took during FY 2009, commencing
in October 2008, or planned for future implementation in FY 2009 or 2010 to increase activity in
the direct lending programs. We conducted our fieldwork from May 5, 2009, to July 15, 2009.

We interviewed key Ex-Im Bank staff to obtain relevant information/documents pertinent to this
evaluation and to clarify relevant Ex-Im Bank policies and actions. Specifically, we met with
representatives from the following Ex-Im Bank offices: Export Finance, Credit and Risk
Management, Chief Financial Officer, Credit Underwriting, Small Business, Policy and
Planning, International Relations, Business Credit, Communications, Trade Finance and
Insurance, Project and Structured Finance, Operations and Advisory Committee. In addition, we
met with representatives from MARAD to discuss their view of U.S. -flag shipping
requirements, their procedures for granting waivers and other related issues.

We analyzed data obtained from Ex-Im Bank staff as well as information available on the Bank’s
website such as the Charter and the 2008 Competitiveness Report. We also reviewed
requirements and guidance provided by external sources such as the Government Accountability
Office (GAO) and the Office of Management and Budget (OMB).




                                                   8                    Office of Inspector General
                                                                            Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                 OIG-EV-09-02
                                       Evaluation Report

V. FINDINGS AND SUGGESTIONS

A. DEMAND FOR DIRECT LENDING BY EX-IM BANK

We discussed with Ex-Im Bank management their perceptions of the state of demand for direct
lending by Ex-Im Bank to support U.S. exports in view of the effects of the international
financial crisis. They identified the primary factors contributing to an increased demand for
direct lending by Ex-Im Bank as lender concerns about decreased credit quality of borrowers and
concerns for the lender’s own liquidity (ability to obtain funds to meet lending and other
obligations). Management described in general terms and anecdotally conversations with a
range of borrowers and lenders that confirmed these conclusions. Management noted a
significant increase in inquiries regarding Ex-Im Bank export credit support for exporters and
foreign buyers that had found financing in the private sector prior to the financial crisis.
Management also pointed to the significant increases in direct lending and in short-term
insurance authorizations and applications (see Table 1 below), as well as a substantial increase in
expressions of interest in Ex-Im Bank funding by sponsors of significant development projects
around the world.

The demand for direct lending discussed above is solely attributed to management’s input
because the Bank does not accumulate data relative to indications of interest that do not turn into
formal applications, applications that are withdrawn or applications that are denied, nor the
reasons for withdrawals or denials. Further discussion on assessing demand for direct loans is
provided in Section C of this report.


B. INCREASED EX-IM BANK AUTHORIZATIONS AND DIRECT LENDING IN
   RESPONSE TO THE FINANCIAL CRISIS

The dollar volume of Ex-Im Bank export credit authorizations has increased substantially in FY
2009 compared to the same period of FY 2008. For the nine months ended June 30, 2009, Ex-Im
Bank reported total authorizations of $14.7 billion in 1,969 transactions, compared to total
authorizations of $14.4 billion in 2,704 transactions for the entirety of FY 2008. Individual
export credit products experienced varying results, with authorizations up substantially in some
areas, particularly in direct loans, but down in others, such as the medium-term programs.




                                                 9                   Office of Inspector General
                                                                          Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                                        OIG-EV-09-02
                                       Evaluation Report


    TABLE 1 –
    AUTHORIZATIONS BY EX-IM BANK
    ($ in millions)
                         First 9 months FY 2009                First 9 months FY 2008                         Percent Change
                        Authorized   Transaction              Authorized   Transaction                    Authorized Transaction
        Program
                         Amount         Count                  Amount         Count                        Amount        Count
    DIRECT LOANS
    Long-term Loans      $   3,067                 15          $        12                  1              25,458.3%           1,500.0%

    Tied Aid Loans               8                 1                     -                   -
      Total Loans
                             3,075               16                    12                   1              25,458.3%           1,500.0%
    GUARANTEES
    Long-term
    Guarantees               5,802                 36              4,806                   49                   20.7%             -26.5%
    Medium-term
    Guarantees                  151                69                  158                 86                    -4.4%            -19.8%
    Working Capital
    Guarantees                  851             278                    595                226                   43.0%              23.0%
    Credit Guarantee
    Facilities                  76                 1                   115                  4                  -33.9%             -75.0%
      Total
      Guarantees             6,880              384                5,674                  365                   25.4%             -98.3%
    INSURANCE
    Medium-term
    Insurance                   179                80                  200                120                  -10.5%             -33.3%
    Short-term
    Insurance                4,366             1,484               1,705                 1,336                 156.1%              11.1%
      Total
       Insurance             4,545             1,564               1,905                 1,456                 145.6%             -22.3%
           7
    PEFCO Notes               224                  5                  80                     3                 180.0%              66.7%
    GRAND TOTAL          $ 14,724              1,969           $   7,671                 1,825                  91.9%               7.9%
(Source: Ex-Im Bank Operations Office)

The increase in Ex-Im Bank export credit authorizations has come in the face of a significant
overall drop in the volume of international trade generally and U.S. exports in particular. In the
first quarter of calendar 2009, U.S. exports were reported to have dropped by 21.5%, suggesting
that Ex-Im Bank’s increased volume of authorizations represents an even larger increase in its
market share of total U.S. export credit provided during these periods.

    TABLE 2 –
    U S. EXPORTS: 2007 v. 2008 and 1ST QUARTER 2008 v. 1ST QUARTER 2009
    ($ in millions)                                                                                                 % change
                                                         % change            2008 thru       2009 thru           2008 thru Mar to
                         2007           2008            2007 to 2008           Mar             Mar                2009 thru Mar

    World Total        $1,148,198     $1,287,441             12.13%            $314,348          $246,770                    -21.50%
(Source: Foreign Trade Division, U.S. Census Bureau, http://tse.export.gov )

7
 PEFCO is a private corporation owned by commercial banks, industrial corporations and financial service
companies that acts as a secondary market purchaser of loans covered by Ex-Im Bank’s guarantee or insurance.
                                                              10                          Office of Inspector General
                                                                                                 Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                    OIG-EV-09-02
                                       Evaluation Report

Management reported that Ex-Im Bank had undertaken four initiatives during FY 2009 that
made use of the Bank’s certainty of funding from the U.S. Treasury to respond to increased
demand for Ex-Im Bank sponsored export credit:

       •	   Increased direct lending, using existing Ex-Im Bank authority to make direct loans.
            In a number of instances transactions that had begun the application process as
            requests for Ex-Im Bank guarantees of loans by private sector lenders were quickly
            converted to applications for direct loans as questions developed regarding the ability
            of the private sector lenders to fund their commitments. Table 3 below itemizes the
            specific direct loans authorized by Ex-Im Bank between October 1, 2008 and June 30,
            2009.

       •	   Restructuring a significant previously authorized guarantee transaction to provide for
            direct advances of loan proceeds by Ex-Im Bank. This transaction, originally
            authorized in FY 2008, was restructured in May 2009, with Ex-Im Bank funding
            $331 million of the committed total of $400 million.

       •	   Purchasing existing Ex-Im Bank guaranteed loans from PEFCO, a private corporation
            owned by commercial banks, industrial corporations and financial service companies
            that acts as a secondary market purchaser of loans covered by Ex-Im Bank’s
            guarantee or insurance, in order to increase its ability to fund pending Ex-Im Bank
            guaranteed or insured loan transactions. Three loans with a face amount of $220
            million were purchased by Ex-Im Bank in December 2008.

       •	   Creating a new product – the “take-out option” – that would allow the lender in an
            Ex-Im Bank guaranteed transaction to sell the loan to Ex-Im Bank at its face amount
            at a stated future date, while still continuing to administratively service the loan. This
            product, publicly announced July 16, 2009, will aid private sector lenders that are
            required to balance the maturities and interest rates of their assets (commercial loans)
            and liabilities. These lenders have had difficulty securing funding at reasonable rates
            at maturities of more than two to four years. The recent release of this product
            prevents the presentation of data on its use in the market.

Through the efforts described above and substantially increased activity in some of its other
programs, Ex-Im Bank significantly increased its lending activity in the current fiscal year. The
$3.1 billion of direct loans authorized represents 15 individual transactions:

TABLE 3 –
AUTHORIZED DIRECT LOAN TRANSACTIONS FROM OCTOBER 1, 2008 TO
JUNE 30, 2009.
               Date      Amt
Count      Authorized Authorized Country         Product
            1       12-Dec-08       14,703,908.00    Ghana        WATER TREATMENT SYSTEM EQUIPMENT
            2       15-Jan-09          373,140.73    Morocco      AIRCRAFT


                                                    11	                Office of Inspector General
                                                                             Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                            OIG-EV-09-02
                                       Evaluation Report

             3       15-May-09       150,662,023.00       Saudi Arabia    POWER PLANT TURBINES
             4       15-May-09       151,076,500.00       Saudi Arabia    POWER PLANT TURBINES
             5       15-May-09       611,097,142.00       Saudi Arabia    POWER PLANT TURBINES,
             6       12-Feb-09           86,504,019.00    Brazil          DIESEL ELECTRIC LOCOMOTIVES
             7       05-Mar-09           99,468,476.00    Canada          HELICOPTERS
             8        23-Apr-09      600,000,000.00       Mexico          OIL & GAS FIELD EQUIPMENT
             9        30-Apr-09      150,000,000.00       Mexico          OIL & GAS FIELD EQUIPMENT
            10        23-Apr-09      300,000,000.00       Mexico          OIL & GAS FIELD EQUIPMENT
            11       21-May-09       500,000,000.00       United States   AIRCRAFT & HELICOPTERS
            12        09-Apr-09          75,335,459.62    Israel          AIRCRAFT
                                                          United Arab
            13        23-Apr-09      270,599,813.16       Emirates        AIRCRAFT
            14        11-Jun-09          18,877,645.00    Indonesia       HELICOPTERS
            15        11-Jun-09          37,925,112.46    Israel          AIRCRAFT
                                    3,066,623,238.97
(Source: Ex-Im Bank Operations Office)

The Bank has also made innovative changes in how some of these transactions were structured in
order to meet the particular needs of borrowers that previously were able to meet their financing
needs in the capital markets or using other private sector sources. An example is the $500
million facility, transaction number 11 above that was described in a Bank press release dated
May 21, 2009 as supporting the ability of a U.S. company to offer financing to the foreign buyers
of aircraft from its subsidiaries.

In view of the Bank’s limited administrative resources, and in order to encourage continued
participation of lenders in Ex-Im Bank programs, management reported that private sector
lenders would handle the administrative servicing of substantially all of the directly funded loans
described above.

Additionally, although not part of the direct loan program, management reported other actions to
assist exporters and lenders in responding to the financial crisis. Specifically, among other
actions, Ex-Im Bank:

      Enhanced the Working Capital Guarantee Program to increase funds available to exporters;

      Authorized substantially increased letter-of-credit support facilities, with larger pre-
      approved limits, for banks in South Korea, India and Angola;

      Reduced cash collateral requirements for letters of credit to 10% of face value from 25%,
      on a case-by-case basis, compared to the 100% coverage typically required by private
      sector lenders;

      Combined the financing limits of the Bank’s Super Delegated Authority Program ($150
      million limit) with the Bank’s Fast Track Program ($300 million) to allow lenders


                                                         12                   Office of Inspector General
                                                                                     Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report
     participating in both programs to increase support for small and medium-sized businesses;
     and

     Expanded the Bank’s working capital loan guarantee program to cover goods produced by
     small businesses that are then sold to a U.S. company that will export them.

Impact of Congressional Mandates

Some members of Ex-Im Bank management and transaction participants – exporters, lenders,
agents, members of the Bank’s Advisory Committee and participants in the focus groups
supporting the 2008 Competitiveness Report –have identified the Congressional Mandates
described in Section II of this report (U.S.-flag shipping, economic impact review, U.S. content
restrictions, local content restrictions, environmental review, Congressional notification) as
imposing significant limitations on Ex-Im Bank’s ability to respond to increased demand for
export credit to support U.S. exports. This was noted to be particularly the case with respect to
Ex-Im Bank direct lending transactions which are subject to U.S.-flag shipping requirements
regardless of size or maturity. By comparison, U.S.-flag shipping is not required for guarantee
transactions of $20 million or less or having a repayment period of 7 years or less, or for
insurance transactions of any size.

In the 2008 Competitiveness Report, the Bank describes the conflicting policy interests resulting
from the Congressional Mandates:

     The limits on Ex-Im Bank financing that result from these public policy considerations are
     sometimes unique to the United States. These unilateral requirements have the potential to
     create tensions between the goals of maximizing U.S. exporter competitiveness vis a vis
     foreign ECA (and maximizing Ex-Im Bank financing) and satisfying public policy
     mandates (which may limit Ex-Im Bank financing).

     Ex-Im Bank stakeholders are split in their views on how Ex-Im Bank should balance
     competing mandates. On one hand, exporters contend that they are disadvantaged by
     requirements that curb Ex-Im Bank financing; they believe that Ex-Im Bank’s U.S. jobs
     mission is best served by maximizing U.S. exporter competitiveness. On the other hand,
     Organized Labor maintains that, as a public institution, Ex-Im Bank should broadly
     evaluate the overall effects of its financing on U.S. jobs (including any negative effects);
     they believe Ex-Im Bank’s U.S. jobs mission is best served by considering the net impact
     of Ex-Im Bank financing.

The Advisory Committee’s response to the 2008 Competitiveness Report confirms
management’s perspective:

     The Advisory Committee notes that the issues of content, economic impact, and
     MARAD/PR 17/shipping requirements have repeatedly been identified by the U.S.
     exporting community as hurdles to Ex-Im Bank’s ability to provide a full range of
     competitive financing as compared to other ECAs. Accordingly, the Advisory Committee
     urges the new Administration to pursue possible solutions that would achieve more balance
                                                13                   Office of Inspector General
                                                                         Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending               OIG-EV-09-02
                                       Evaluation Report
     along both the competitiveness and employment vectors. Such an effort needs to include
     all stakeholders, including Congress, labor and the business community.

While at the same time the Advisory Committee’s response acknowledged that:

      . . . the two members representing labor have expressed concern about how the Report
     addresses the issues of content, economic impact and U.S. shipping requirements, including
     the methodology. In particular, the labor members neither concur with the Report’s
     description of these issues nor the description of, or the impact on, the U.S. exporting
     community’s experience with these factors as an important element in their overall
     competitiveness.

Impact of U.S.-Flag Shipping Requirements

Based on the limited resources of the OIG available for this evaluation and anecdotal reports of
particular challenges associated with the U.S.-flag shipping requirements, we focused our
resources on the examination of the effect of one of the Congressional Mandates, that requiring
the use of U.S.-flag ocean vessels to carry U.S. exports supported by Ex-Im Bank (PR 17), on the
Bank’s export credit transactions generally and specifically in the context of the Bank’s response
to the international financial crisis. U.S.-flag ocean vessel shipping requirements were one of a
number of Congressional Mandates identified in the Bank’s 2008 Competitiveness Report
summary of exporter perspectives that were identified as having a negative impact on the
competitiveness of U.S. exports.

As discussed above and in Section C., Ex-Im Bank does not maintain comprehensive data
regarding exporter experience with U.S. shipping requirements administered by MARAD. One
Export Finance Vice President (VP) identified anecdotally 21 transactions over the past six years
that were believed to have been negatively affected by U.S. shipping requirements (see Table 4).
This VP stated that of the 21 transactions, some companies hired consultants to assist in meeting
MARAD requirements or obtaining a waiver, while others cancelled transactions or refused to
use Ex-Im Bank for future business.




                                               14                   Office of Inspector General
                                                                        Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                  OIG-EV-09-02
                                       Evaluation Report

      TABLE 4 –
      TRANSACTIONS IN WHICH U.S.-FLAG SHIPPING REQUIREMENTS
      WERE REPORTED TO NEGATIVELY IMPACT EX-IM BANK
      TRANSACTIONS BETWEEN JANUARY 2003 AND MAY 2009.
             Ex-Im      Consultant    Cancelled   Not cancelled but   Not cancelled but refused
            finance      hired to                    significant      to use Ex-Im Bank again
            portion      assist in                    shipping        due to U.S.-flag shipping
             ($MM)      obtaining a               problems or cost          requirements
                          waiver
       1      $   405        X
       2          404        X
       3           40                    X
       4           80        X
       5           55                                                              X
       6           54                                                              X
       7           90                    X
       8          500        X
       9          400        X
      10          900                                    X
      11           63                    X
      12          200        X
      13          500                                    X
      14          400        X
      15           60                                    X
      16           48                                    X
      17        1,000                    X
      18    unknown                      X
      19           61                    X
      20           54                                                              X
      21    unknown                      X
              $ 5,314        7           7               4                          3
     (Source: Export Finance VP)

The Bank’s 2008 Competitiveness Report includes the following discussion of U.S.-flag
shipping requirements based on interviews of focus groups of Ex-Im Bank lenders and exporters
consulted by the Bank:

     Most exporters and lenders noted that the MARAD requirement is a factor that places them
     at a competitive disadvantage. Critics of this requirement explain that the higher shipping
     costs (sometimes 40%+ higher) and route scheduling challenges associated with shipping
     via U.S.-flagged vessels is a prohibitive aspect of using Ex-Im Bank support. They note
     that in some cases U.S. shipping requirements may be the sole reason why a U.S. exporter
     may lose business to a foreign competitor. One exporter noted that the MARAD
     requirements are impractical and do not reflect real world shipping cost scenarios. These
     requirements can actually hinder the realization of U.S. exports by mandating shipping
     logistics and/or costs that make sourcing U.S. equipment prohibitive. Other exporters
     noted that obtaining a waiver from MARAD is often a 2-3 month process which, in such
     cases, leads the exporter and lender to give up and source product from another country.
                                                  15                  Office of Inspector General
                                                                           Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                          OIG-EV-09-02
                                       Evaluation Report
        For U.S.-domiciled multinationals with significant existing manufacturing operations
        already overseas, the MARAD requirements are so onerous that they are considering
        moving major U.S. manufacturing lines overseas, enabling them to access foreign ECA
        financing without the burden of the MARAD requirements.

        However, there is also an alternative perspective voiced by the transportation and logistics
        departments of a number of U.S. exporters who use Ex-Im Bank financing. These
        individuals who work with MARAD staff and MARAD’s published Policies and
        Procedures, explained that they found waiver requests less burdensome when they closely
        conformed to MARAD’s own guidelines. In addition, they noted that their general
        experience was that MARAD’s waiver processing staff endeavors to process waivers in a
        timely manner and is sensitive to the time constraints of each individual ExIm-supported
        deal.

In view of the reported difficulties of exporters in obtaining competitive shipping schedules and
costs using U.S.-flag vessels, a significant number of them are reported to request waivers of the
PR 17 requirements from MARAD. MARAD administers the waiver process based upon an
exporter filing a written request for waiver that provides evidence supporting one of four
categories of qualification based on the express terms of PR 17:

      •	 “Statutory” waivers may be granted when U.S.-flagged vessels will not be available
         within a reasonable time or at reasonable rates. “Reasonable rates” are rates that are
         deemed by MARAD to be reasonable for a U.S.-flagged vessel based on MARAD’s
         monitoring of the operating costs of the U.S. merchant marine fleet, and do not take into
         account lower prices that may be offered by a foreign-flagged vessel.

      •	 “Conditional” waivers may be granted for cases where no U.S-flagged vessel is available
         to accommodate multiple shipments of “critical item” cargoes during a required project
         time period.

      •	 “General” waivers may be granted in situations where a U.S.-flagged vessel may be
         available, but recipient-nation vessels are authorized to share in the ocean carriage (the
         recipient nation must give similar treatment to U.S. vessels in its foreign trade).

      •	 “Compensatory” waivers may be granted when foreign borrowers or U.S. exporters ship
         goods on non-U.S.-flagged vessels and subsequently enter into an Ex-Im Bank-supported
         financing agreement for those goods. In such cases, a compensatory waiver may be
         granted directing that an equivalent amount of non-Ex-Im Bank-supported goods to be
         shipped on U.S.-flagged vessels within a specified time period.

Based on the information shown in Table 5, it appears that MARAD approves a high percentage
of the waiver applications submitted (approval rate ranged from 92 to 100 percent). For calendar
year 2007, MARAD identified 211 individual bills of lading associated with Ex-Im Bank
supported transactions, compared to the 13 individual waivers granted during that year.8
8
    A single Ex-Im Bank supported transaction can result in more than one shipment.
                                                       16	                    Office of Inspector General
                                                                                  Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                      OIG-EV-09-02
                                       Evaluation Report
According to MARAD, waiver denials have been consistently kept to a minimum as a result of
MARAD’s proactive assistance in finding suitable U.S.-flag service. MARAD explains that this
is intentionally accomplished through its efforts to educate Ex-Im Bank’s prospective customers
so they understand that if no reasonably competitive U.S.-flag service exists, a waiver will be
granted expeditiously.

   TABLE 5 –
   NUMBER OF EX-IM BANK RELATED PR 17 WAIVERS FROM FY 2002 TO
   FY 2008.
                                                                                             Percentage
                                                                                             of Waivers
   Waiver Type                 2002   2003   2004    2005   2006   2007    2008 Total        Approved
   General        Approved        3     0      0       1      0      1        0          5 100%
                  Denied          0      0      0       0      0      0       0          0
   Statutory      Approved       22    29     26      19     17      6       12       131 92%
                  Denied          1      5      2      2      1      0        0         11
   Compensatory   Approved       10    11      5       3      2      6        9         46 100%
                  Denied          0      0      0       0      0      0       0          0
   Conditional    Approved        0     0      0       1      0      0        0          1 100%
                  Denied          0      0      0       0      0      0       0          0
   Total          Approved       35     40     31      24     19     13      21       183 94%
                  Denied          1      5      2       2      1      0       0         11
   (Source: MARAD)

Given the conflicting perspectives relating to U.S.-flag shipping requirements, we performed
additional work to identify opportunities to improve the Bank’s effectiveness in supporting U.S.
exporters and their foreign buyers in understanding and complying with the U.S.-flag shipping
requirements. The results of our work are presented below in Section C, Objective 3.


C. OPPORTUNITIES TO FURTHER ENHANCE EX-IM PERFORMANCE AND
   INTERNAL CONTROLS

OBJECTIVE 1: ASSESS THE DEMAND FOR DIRECT LOANS FROM EX-IM BANK BY U.S.
EXPORTERS AND FOREIGN PURCHASERS OF U.S. GOODS AS A RESULT OF THE INTERNATIONAL
FINANCIAL CRISIS.

Suggestion 1:
Develop a systematic and comprehensive approach to collecting and reporting data relating to
market demand and related factors impacting Ex-Im Bank performance.

Management Response:
Ex-Im Bank will review what options are available with regard to data gathering, recognizing
that Ex-Im Bank has staffing and financial constraints.


                                                17                        Office of Inspector General
                                                                             Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report
It is clear from the rapid increase in the rate of Ex-Im Bank’s authorizations of direct lending
transactions during FY 2009 as presented above in Table 1 that the demand for direct lending has
increased substantially and that Ex-Im Bank staff have been active and successful in responding
to increased demand for direct lending. It was not possible for us to assess the aggregate demand
for Ex-Im Bank direct lending support, the causes for that increased demand, nor whether Ex-Im
Bank has responded to 100% of the increased demand or some lesser percentage because
individual participants determined not to apply, withdrew applications or had applications
rejected. While management provided anecdotal reports of individual exporters or lenders
determining not to seek Ex-Im Bank support because of challenges associated with the
Congressional Mandates described in Section II of this report (U.S. shipping, economic impact
review, U.S. content, local content, environmental review, Congressional notification),
comprehensive data were not available.

Management’s ability to gauge and report market demand for particular services, such as the
demand for direct lending during the current financial crisis, the impact of various conditions on
that demand, such as the impact of the Congressional Mandates, and the Bank’s success in
meeting market demand and assisting exporters and lenders in navigating the full range of
requirements for Ex-Im Bank support is limited because the Bank does not collect and record
relevant and available data in a systematic manner.

Our discussions with management in the course of preparing this report indicated that there was
extensive and frequent communication between management and leading exporters and lenders,
as well as other participants in Ex-Im Bank supported transactions. However, because this data
is not collected, recorded and reported in any systematic manner, it is difficult for management
and other interested parties, such as the Office of Inspector General, to obtain other than
anecdotal data. The absence of comprehensive data also makes it difficult for the Bank to
approach OMB, Congress or the constituencies supporting each of the Congressional Mandates
to engage in a discussion of whether any modifications of those requirements might be justified,
generally or more narrowly in response to specific circumstances existing in the market.

The Bank does track transactions authorized and transactions for which applications have been
submitted that are pending, including the elapsed time of the Bank’s response to the applications.
The Bank does not accumulate data relative to inquiries and indications of interest that do not
turn into formal applications, inquiries and indications of interest that the Bank’s staff refer to
private sector export credit providers for action, the nature of exporters making inquiries (for
example, small and disadvantaged businesses), applications that are submitted but later
withdrawn, including whether early adverse reaction by the Bank’s staff or further information
about requirements and conditions to Ex-Im Bank support contributed to the decision to
withdraw the application, applications that are denied and the reasons for denial, nor the reasons
for failures to proceed with applications, withdrawals or denials. Comprehensive quantitative
data regarding the impact of the Congressional Mandates on the demand for Ex-Im Bank
financing is not available.

This sort of data is collected by other government agencies, and also by private sector lenders, in
order to allow them to more closely track and respond to trends in the demand for and reaction to
their offered services. This data will support a more focused and potentially effective outreach to
                                                18                   Office of Inspector General
                                                                         Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                  OIG-EV-09-02
                                       Evaluation Report
parties that have not used the Bank’s support. Establishing a formal tracking system would assist
management by providing a clear, centralized overview of the Bank’s workload. From the
standpoint of the Bank’s mission of advancing U.S. jobs through exports, the time that staff
spends successfully referring an exporter to a private source of export credit is just as valuable as
time spent approving a submitted application. A formal system would provide managers with
visibility into staff workload and volume and measurable application approval and denial data on
which to base performance evaluations and resource allocation decisions. It would provide
routine accessibility to information from which to identify trends, challenges and recurring issues
warranting management attention. The information retained could also provide a useful teaching
tool to increase efficiency and accuracy in responding to inquiries and reduce loan application
error rates.


OBJECTIVE 2: IDENTIFY THE ACTIONS TAKEN BY EX-IM BANK TO UTILIZE THE LIQUIDITY
PROVIDED BY ITS U.S. TREASURY FUNDING TO FILL GAPS IN RESPONSE TO THE INTERNATIONAL
FINANCIAL CRISIS.

Suggestion 2:
Adopt a policy for Ex-Im Bank setting forth clear written requirements for approving material
policies, new export credit products and material changes in existing export credit products.

Management Response:
Ex-Im Bank is currently reviewing the policy approval process to be sure consistent procedures
exist for modifying or creating financing products.

During the course of our evaluation of Ex-Im Bank’s actions to respond the financial crisis, and
particularly the use of its direct lending authority supported with liquidity provided by the U.S.
Treasury, we noted a number of instances of management identifying and responding to changes
in the market in order to better serve U.S. exporters and export credit users. Examples included
converting a number of pending applications for guarantee support to direct lending transactions,
the innovative structuring of a transaction supporting the exporting subsidiaries of a parent
company and the creation of the “take-out” option, all described previously.

When we asked to review the policy support and documentation for these actions, management
was not able to direct us to any particular statement of the Bank’s policy that supported the
actions taken. It should be noted that the Board of Directors considered and voted on each of the
listed transactions after detailed briefings by the Bank’s staff. The current practice at the Bank,
as evidenced in the case of the three actions described above, appears from our review to consist
of developing material policies, new export credit products and material changes in existing
export credit policies based upon consultations among senior management, including in some
cases consultation with the Board of Directors on a formal or informal basis, and approval by the
relevant division head or the Chief Operating Officer or Chairman/President of the Bank. In
each of the instances we reviewed there was not a formally specified decisional and
documentation structure that assures that all material business, operational, financial, legal and
policy considerations, including a comprehensive risk analysis, are taken into account, and those
determinations documented, before the relevant policy is adopted by the Bank.
                                                 19                   Office of Inspector General
                                                                           Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                   OIG-EV-09-02
                                       Evaluation Report

In the case of the $500 million transaction (No. 11 of Table 3) mentioned above, its innovative
structure was reported to have been developed by management in direct negotiations and
discussions with the parent company borrower. The transaction was duly presented to and
approved by the Board of Directors, assuring that all formal legal requirements for approval by
the Bank were met. It did not appear from the information presented to us that management
consideration was given to whether the innovative features of the transaction represented a
sufficient deviation from existing practice at the Bank that additional, more general,
consideration of its advantages and risks, and its potential for use by other U.S. exporters, would
be beneficial.

It is a generally accepted practice among private sector financial institutions that new policies,
new lending products and material changes to existing lending products are considered by an
established committee including representatives of all areas of the institution that will have
responsibility for implementing the relevant action and dealing with its requirements and
consequences. This approach produces a number of benefits:

   •	   It provides greater assurance that unanticipated problems do not plague the execution of
        new policies or products;
   •	   It provides greater assurance that all interested constituencies within the institution have
        been consulted regarding the impact of the proposed action on them and what they will
        be called upon to do to assure its success;
   •	   It increases the efficiency of the process of creating new policies or new products – in
        many cases the amount of work associated with creating a single innovative transaction
        will be nearly as great as would be a more general consideration of creating an innovative
        product that can be offered to other customers;
   •	   It more effectively manages risk by calling on each affected area of the Bank to suggest
        and evaluate sources of risk on a collaborative basis – when innovation occurs on an
        unstructured, “one-off” basis, for the benefit of parties having specific risk characteristics
        that are addressed by skilled advocates, the result can be terms that manage risk
        reasonably for the specific case, but much less effectively for other parties that might
        request similar treatment; and
   •	   It allows the Bank’s public relations and client relationship teams to understand the
        general features of the innovative structure and to more rapidly spread the news of its
        availability among potential users.

The Bank’s Senior Vice President (SVP) of Policy and Planning reported to us that it had been
the historical practice of the Bank to use a formally convened committee as a policy/new product
centralizing and processing entity, with some of its conclusions being shared with the Board.
However, in later years the Bank’s senior management was reported to have emphasized the
operational primacy of line functions, allowing the Bank’s operating divisions to independently
issue a policy if the applicable division head deems it appropriate.

Chairman James Harmon, in March 1999, created a Policy Committee “…to review significant
policy and program issues and develop possible resolutions; work with management to
efficiently allocate policy development duties to line staff; prioritize policy topics with the broad
                                                 20	                   Office of Inspector General
                                                                            Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                  OIG-EV-09-02
                                       Evaluation Report
priorities established for the Bank and act as a responsive body that will help staff get efficient
answers to pressing questions.” The Committee has been discontinued.

GAO’s “Standards for Internal Control in the Federal Government” identified Control
Environment as one of the five standards for internal control. GAO stated “a good
internal control environment requires that the agency’s organizational structure clearly
define key areas of authority and responsibility and establish appropriate lines of
reporting. The environment is also affected by the manner in which the agency delegates
authority and responsibility throughout the organization. This delegation covers
authority and responsibility for operating activities, reporting relationships, and
authorization protocols.”

We believe that for the Bank to have the sort of good control environment described by
GAO, it is necessary to have a clear line of authority for the adoption of material policies,
new products and material changes to existing products that runs from the Chairman and
that assures that all relevant operating divisions of the Bank have been consulted
regarding the effects of the proposed action on them, associated risks and their capacity
to execute the action taken.


Suggestion 3.
Develop a plan to guide the Bank’s response to financial crises generally based upon evaluation
of the Bank’s response to the current financial crisis.

Management Response:
The suggestion of developing a crisis response plan would be difficult for Ex-Im Bank to
implement since Ex-Im Bank operates in a responsive mode. As a result, Ex-Im Bank’s products
are designed to address gaps in the market, be they immediate or longer term crisis gaps.

Evaluator’s Comment:
We respectfully differ with management’s perception of the utility and value of making a written
record of the insights that have guided its response to the current financial crisis and the “lessons
learned” in the process of responding.

Ex-Im Bank was created in the 1930’s specifically to address the long-running crisis in
international trade and finance that was a central feature of the Great Depression. This report
finds the Bank confronting the most significant international financial crisis and contraction of
international trade and finance since the 1930’s. Interestingly, because the Bank’s management
and Board considered the Bank to be reasonably well structured and provisioned with sufficient
lending authority to respond to significantly increased demand in the current environment, no
additional funding or other legislative action was requested for Ex-Im Bank when Congress
considered and passed the American Recovery and Reinvestment Act of 2009.

Our interviews with management disclosed that Ex-Im Bank did not have a documented plan in
place to guide the Bank’s response to the current financial crisis or other possible economic
emergencies that might arise in specific locales around the world or more broadly. Rather, Ex-
                                                 21                    Office of Inspector General
                                                                           Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                   OIG-EV-09-02
                                       Evaluation Report
Im Bank’s management has relied upon consultation among senior management and with the
Board of Directors and the Bank’s customers and trade groups, the development of specific ad
hoc project teams and institutional memory to guide management’s actions to address the current
financial crisis. The Bank is fortunate that its institutional memory reaches back to events such
as the Asian debt crisis of the late 1990’s and previous financial crises in Argentina and Mexico.
However, many of the employees who carry those memories are approaching retirement age and
the Bank cannot assume that the benefit of their experience, and the experience of the current
financial crisis, will remain easily accessible for the next financial crisis the Bank encounters.

The absence of a crisis response plan can have several negative consequences. It increases the
time required to identify and plan actions that the Bank should take to provide additional support
to U.S. exporters and export credit lenders in response to a financial crisis. It also increases the
risk that opportunities will be missed or mistakes will be made in the course of executing the
Bank’s response. While the specific facts or timing of a particular financial crisis that impacts
international trade credit cannot be predicted with confidence, many of the features of such
events can be anticipated, and their potential effects on the Bank’s operations and its various
product lines and stakeholders analyzed, before the crisis occurs, allowing the creation of
tentative responses and action plans. It generally will take less time and effort to modify a
thoughtfully prepared crisis response plan to fit the specifics of a particular crisis than it does to
develop an effective response from a standing start.

It is a generally accepted practice among crisis managers that an organization’s response to each
crisis that it confronts should be reviewed after the fact to assess the effectiveness of the
organization’s response and to take note of “lessons learned” to improve the organization’s level
of crisis planning and preparedness for the future. The current financial crisis provides the
Bank’s management with an opportunity to assess the Bank’s performance in the current
environment and also to identify actions, modifications to products and policies and possibly
changes to the Bank’s Charter that might improve its response in the near- and longer-term
future. Because the end of the current financial crisis is not yet in sight, and in view of
management’s current engagement in the development of a strategic plan for the Bank, we
believe it advisable that management undertake an interim assessment of these questions at this
time rather than waiting for conditions to improve to a degree that the financial crisis will be
considered to have passed.

Among the subjects that should be addressed by a crisis response plan would be:

   •	 Likely early indicators of a particular type of crisis that the plan is intended to address
      and indicated actions to confirm that data and to initiate the Bank’s response.

   •	 A description of the international trade and export credit market scenarios that would
      constitute a crisis and their anticipated effects on the Bank and its stakeholders, indicating
      anticipated effects on each of the Bank’s product lines (including material shifts in risk
      profiles), anticipated effects of private sector export credit lenders and insurers and
      possible demand for the Bank to supply new or modified products.



                                                  22	                  Office of Inspector General
                                                                            Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                  OIG-EV-09-02
                                       Evaluation Report
   •	 Specification of the team of Bank employees and possibly outside advisors (including
      retired Bank staff with relevant experience) that the Bank would expect to assemble to
      respond to the particular elements of the crisis.

   •	 Action plans guiding the specified team(s) in evaluating, planning and executing the
      necessary actions to respond to the crisis, including any action from Congress that might
      be required to support the Bank’s response.

   •	 A communications plan guiding the Bank’s inbound and outbound communications
      strategies with each of its stakeholders.

We would also recommend that management consider including “being prepared to respond
promptly and effectively to financial crises in the U.S. or in any part of the world” as one of the
Bank’s strategic objectives during management’s development of the Bank’s strategic plan in
coming months.


OBJECTIVE 3: IDENTIFY CONDITIONS THAT MIGHT RESTRAIN THE BANK’S ABILITY TO
RESPOND TO INCREASED DEMAND FOR DIRECT LOANS AND RECOMMEND ACTIONS TO RESPOND
TO THOSE CONDITIONS.

Based on the limited resources of the OIG available for this evaluation, and the lack of
comprehensive data to support further analysis as noted above in support of Suggestion 1, we
determined to examine more closely the effect of one of the Congressional Mandates, that
requiring the use of U.S.-flag ocean vessels to ship Ex-Im Bank supported exports (PR 17), on
the Bank’s export credit transactions generally and specifically in the context of the Bank’s
response to the international financial crisis.

The focus groups and a majority of the Bank’s Advisory Committee who contributed to the
Bank’s 2008 Competitiveness Report expressed consistent views that the U.S.-flag shipping
requirements and other Congressional Mandates (economic impact review, U.S. content, local
content, environmental review, Congressional notification) did lessen the competitiveness of Ex-
Im Bank support for U.S. exports and that they should be addressed by the Bank, particularly in
times such as the present international contraction of exports and export credit availability.


Suggestion 4:
Action by Ex-Im Bank is needed to actively work with MARAD in order to improve the
efficiency of U.S.-flag ocean vessel shipping requirements so as to minimize any negative
impact on Ex-Im Bank support for U.S. exports and maximize the use of U.S.-flag ocean vessels
during the international financial crisis.

Management Response:
Management supports this suggestion and notes that it has been, and will continue to be,
identifying and discussing such constraints. Ex-Im Bank is in the process of scheduling a
meeting with MARAD.
                                                 23	                  Office of Inspector General
                                                                           Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                              OIG-EV-09-02
                                       Evaluation Report


Our discussions with Ex-Im Bank senior management and the representatives of MARAD, and
our review of the publicly available information provided by each to guide transaction
participants in complying with the U.S.-flag ocean vessel requirements of PR 17 (see
Appendices A and B), indicated that there was substantial opportunity for improvement in the
efficiency of the explanation and implementation of these requirements for the benefit of U.S.
employment. We have concluded that improved Ex-Im Bank staff knowledge of the
requirements and how to best manage them, improved communications between Ex-Im Bank
and MARAD and improved joint communications to participants in Ex-Im Bank supported
transaction should each contribute to improved results.

Management reported that in December 2008, the Bank’s SVP Export Finance and VP of Project
and Structured Finance met with representatives of MARAD to discuss ways to limit adverse
impacts on Ex-Im Bank transactions attributable to PR 17 shipping requirements while
maintaining compliance and producing better results for U.S. exporters. This discussion was
driven in part by concern that an increase in interest by exporters and foreign buyers in obtaining
direct loans from Ex-Im Bank to replace a significant decline in the availability of export credit
loans from private sector lenders would result in significant numbers of smaller direct loan
transactions being subject to U.S.-flag ocean vessel shipping requirements.9

Key points addressed in the discussion were reported to include increasing communication
between MARAD and Ex-Im Bank and arranging for Ex-Im Bank staff to provide additional
guidance to exporters and encourage them to contact MARAD as early as possible for assistance
in arranging reasonably priced U.S.-flag ocean vessels. The SVP also requested that MARAD
agree that direct loans under $20 million would not be subject to the U.S.-flag shipping
requirements, resulting in comparable treatment for direct loans, guarantees and insurance
transactions. In contemporaneous correspondence addressed to MARAD’s Administrator, Ex-
Im Bank’s SVP stated that Ex-Im Bank would in the future provide guidance to exporters, and
“… will strongly encourage sponsors/exporters to be in contact with MARAD as early as
possible (at least 2 months prior to shipment) and will make formal introductions or arrange
appointments as necessary….”

The Bank’s VP of Project and Structured Finance Office has served as an unofficial point of
contact between Ex-Im Bank and MARAD. She has maintained anecdotal records of Ex-Im
Bank customer challenges in complying with the PR 17 shipping requirements and reported
assisting customers in meeting MARAD requirements by providing limited guidance and
directing her staff to encourage exporters, borrowers and bankers to meet with MARAD as early
as possible in order to promptly go through the competitive analysis of bids submitted by U.S.-

9
  Ex-Im Bank policy provides that direct loan transactions are subject to U.S.-flag shipping requirements regardless
of size or maturity. By comparison, U.S.-flag shipping is not required for guarantee transactions of $20 million or
less or having a repayment period of 7 years or less, or for insurance transactions of any size. As events have
transpired, significant demand for direct export credit loans from Ex-Im Bank of less than $20 million has not
materialized – as Table 3 above indicates, only 3 of 15 direct loan transactions authorized by Ex-Im Bank between
October 1, 2008 and June 30, 2009 fell below the $20 million threshold. Data indicating whether the small number
of direct loans below the $20 million threshold was attributable to the negative impact of U.S.-flag shipping
requirements was not available.
                                                         24                       Office of Inspector General
                                                                                       Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                 OIG-EV-09-02
                                       Evaluation Report
flag carriers. She also reported suggesting to Export Finance loan officers that they participate in
MARAD meetings relating to Bank supported transactions when possible.

During our fieldwork, we found that a Direct Loan Working Group (DLW Group) was formed to
revise the Bank’s direct loan policy to accommodate changes made advisable by the financial
crisis and the increased use of direct loans. The DLW Group had not been advised of the SVP’s
December meeting with MARAD officials or the intention to advise transaction participants to
contact MARAD early in the Ex-Im Bank application process prior to our discussion with a
member of that committee. Following that conversation, on June 3, 2009, Ex-Im Bank issued a
policy on the Direct Loan Program stating that “Loan Officers are to encourage
sponsors/exporters to contact MARAD as early as possible for best pricing on U.S. flag ocean
vessels.”

In order to obtain a more thorough understanding of PR 17 U.S. shipping requirements and
MARAD’s policies relative to Ex-Im Bank supported transactions and related waiver requests,
we reviewed the history of communications between MARAD and Ex-Im Bank addressing the
scope of the U.S. shipping requirements applicable to Ex-Im Bank transactions and interviewed
senior MARAD officials responsible for oversight of Ex-Im Bank transactions. This review and
interview cast a somewhat different light on the subject, with senior MARAD officials
conveying the following information:

     MARAD has consistently maintained that all Ex-Im Bank supported transactions are
     subject to the U.S.-flag shipping requirements of PR 17 and related statutes, a position that
     Ex-Im Bank has declined to accept. This difference of opinion is reflected on the parties’
     respective websites, with Ex-Im Bank’s description emphasizing the exceptions to U.S.-
     flag shipping requirements described in Section II of this report, while MARAD’s website
     states that all Ex-Im Bank supported transactions are subject to U.S. shipping requirements
     unless a waiver is granted. In partial compromise of this difference of opinion, MARAD
     and Ex-Im Bank have operated for many years under a series of non-binding memoranda of
     understanding that have been substantially consistent with Ex-Im Bank’s view of the
     coverage of PR 17. Based upon their experience in working with Ex-Im Bank in recent
     years and a modification to 46 USC 53305 by Congress in 2008, MARAD officials
     indicated that they were considering re-engaging with Ex-Im Bank staff with the objective
     of narrowing the exceptions from coverage of PR 17’s requirements applicable to Ex-Im
     Bank sponsored transactions.

     MARAD has received anecdotal reports of individual Ex-Im Bank employees informing
     exporters that they need not worry about U.S.-flag shipping requirements for their
     transactions, or that the exporter could wait “until the last minute” and then expect
     MARAD to provide a waiver. MARAD officials also indicated that their work to help U.S.
     exporters secure U.S.-flag shipping at reasonable cost, or consider the availability of a
     waiver, was sometimes hindered by receiving incomplete data or finding that U.S.-flag
     carrier shipping bids received by an exporter and submitted to MARAD differed from the
     scope of a waiver request. MARAD officials expressed their strong commitment to
     working with exporters to ensure the U.S.-flag requirement does not unnecessarily delay


                                                25                    Office of Inspector General
                                                                          Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report
     the process and to maintain a high level of customer sensitivity to the statutory
     requirements so they do not lose the beneficial Ex-Im Bank support for their financing.

     MARAD officials indicated that while they had spoken with members of the Bank’s
     management and staff from time to time in connection with their efforts to effectively
     implement the U.S.-flag shipping requirements, communications between MARAD and
     Ex-Im Bank senior management occurred infrequently. Other than the contact with
     MARAD by the Bank’s SVP in December 2008 described above, MARAD officials
     indicated that there were no ongoing joint initiatives to improve the functioning of the
     U.S.-flag shipping requirements for Ex-Im Bank supported export transactions during the
     international financial crisis.

     Both the MARAD and Ex-Im Bank website pages that address U.S.-flag shipping
     requirements (including data from those sources presented in this report) give the
     impression that the most relevant questions for the exporter in an Ex-Im Bank supported
     transaction are whether and how to obtain a waiver of those requirements. Contrary to this
     impression, MARAD officials informed us that in fact, a significantly larger volume of
     U.S. exports supported by Ex-Im Bank are shipped successfully on U.S.-flag vessels than
     are granted waivers. MARAD officials stated that the number of waivers indicated as
     having been granted in Table 5 above represent a small fraction of the total number of
     transactions that in fact use U.S. shipping. They also noted that the high number of waivers
     granted in several of the reported years reflected the global high demand for export
     shipping and that with the recent contraction of international trade, operators of U.S.-flag
     vessels had substantially more available capacity, making it less likely that a basis for a
     waiver could be established currently or in the near-term future.

     MARAD’s officials indicated that in their experience the ocean vessel portion of shipping
     costs for Ex-Im Bank supported transactions offered by U.S.-flag ocean vessel operators
     typically falls in a range of between 4% and 20% of the total value of a particular
     transaction, depending on variables such as the nature of the shipped goods, their size and
     weight, their destination and the flexibility of the parties in setting a delivery date. The
     experience of MARAD officials is that it is possible for U.S. exporters required to use
     U.S.-flag carriers under PR 17 to obtain responsive carriage proposals that will not exceed
     competing commercial bids significantly when taken as an overall percentage of the entire
     project.

     MARAD officials acknowledged that arranging the necessary logistics can be challenging
     and that many U.S. exporters and freight forwarders may not have the knowledge and
     experience to obtain the lowest possible rate for a timely shipment on a U.S.-flag carrier.
     To counter this, MARAD offers free advice and assistance to exporters in Ex-Im Bank
     transactions in obtaining the lowest possible competitive bids. MARAD officials
     emphasized that it is critical that the exporter begin seeking bids from U.S.-flag carriers,
     and approach MARAD for assistance, at the earliest possible time – even at or before the
     time that a formal application for Ex-Im Bank support is made – in order to maximize the
     potential number of competitive bids that operators of U.S.-flag ships might submit. The
     MARAD officials cited actions such as combining partial cargoes with other shipments to
                                               26                   Office of Inspector General
                                                                         Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                  OIG-EV-09-02
                                       Evaluation Report
     support a much lower “full cargo” bid relative to partial cargo bids that require the vessel to
     arrange other shipments.

We reviewed the webpages for both MARAD and Ex-Im Bank that address U.S.-flag shipping
requirements (see Appendices A and B to this Report). Neither site provided a detailed
explanation of how to successfully work with MARAD and U.S.-flag shipping requirements in
order to obtain a positive result for the export transaction nor explained the importance of
beginning the process at the earliest possible date. Neither web site disclosed that a substantial
volume of Ex-Im Bank supported exports were successfully carried by U.S.-flag vessels.


Follow-up to December 2008 Meeting – We suggest that Ex-Im Bank senior management follow
up on the December 2008 meeting with MARAD officials and related correspondence to confirm
actions that each of the Bank and MARAD has taken or may take in response and to identify
other areas for joint or individual action to address the issues identified in this report. Ex-Im had
not followed-up on the proposal to remove the U.S. shipping requirement on direct loans under
$20 million. At our July 2009 meeting with MARAD’s Deputy Associate Administrator,
Director of Cargo Preference and Domestic Trade, we asked about the status of this request. The
Deputy Associate Administrator responded that MARAD’s legal counsel will review Congress’
change to the rules on exemptions, which occurred last year, and will notify Ex-Im of any
changes.

Liaison - Ex-Im Bank has not formally assigned responsibility to a member of its management or
staff to work with MARAD as a liaison on a regular basis to address the sorts of issues identified
in this report. The VP of Project and Structured Finance has served as an unofficial liaison with
MARAD but we believe that a more regular and consistent management of the U.S.-flag
shipping requirements between Ex-Im Bank and MARAD would result from a formal
designation of a liaison. The chosen liaison should be directed to achieve a high degree of
familiarity with the U.S.-flag shipping requirements and MARAD’s operational requirements in
order to provide optimal assistance to U.S. exporters in securing U.S.-flag shipping for their
products or, in appropriate cases, waivers of the requirements.

Policy & Communications - Ex-Im Bank should evaluate its existing policies, and the
communication of its policies and MARAD’s policies to the public, with a view to achieving
improved efficiency in its management of U.S.-flag shipping requirements for the benefit of U.S.
exporters and improved communication and cooperation with MARAD. In particular, we
recommend that Ex-Im Bank consider establishing policies that:

   •	 Call for the regular dissemination of accurate information regarding the Bank’s policies
      with respect to U.S.-flag shipping requirements among its staff and customers; and
   •	 Assure that customers are made aware of those requirements and how to most effectively
      manage them at the earliest possible time in order to improve their ability to secure U.S.-
      flag ocean vessels at competitive pricing.

We also suggest that Ex-Im Bank management obtain from MARAD its existing detailed reports
of U.S.-flag ocean vessel usage in connection with Ex-Im Bank supported transactions and use
                                                 27	                  Office of Inspector General
                                                                           Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending               OIG-EV-09-02
                                       Evaluation Report
that data and other Ex-Im Bank customer data that is available or that might be reasonably
obtained to track usage of U.S.-flag vessels and related costs in order to monitor the impact of
the U.S.-flag shipping requirements on U.S. exporters on a more systematic and comprehensive
basis, as addressed above in Suggestion 1.




                                               28                   Office of Inspector General
                                                                        Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                               OIG-EV-09-02
                                       Evaluation Report

Appendix A – U. S. Shipping Requirements – Ex-Im Bank Internet Disclosures
Ex-Im Bank’s Web page dedicated to U.S.-flag ocean vessel shipping requirements appears at
http://www.exim.gov/products/policies/shipping.cfm (August 11, 2009):

Shipping Requirements (MARAD)
Ex-Im Bank's shipping regulations are subject to Public Resolution 17 of the 73rd Congress (PR 17), which indicates
that in any loans made by Ex-Im Bank to support the export of U.S. made products a provision be made that such
products be carried exclusively on U.S. vessels. The purpose of PR 17 is to support the U.S. strategic objective of
maintaining a merchant marine sufficient to carry a substantial portion of its waterborne export and import foreign
commerce.

The following transactions are subject to the provisions of PR 17:

    1. 	 Direct loans regardless of term or amount; and

    2. 	 Guarantees in excess of $20,000,000 (excluding Ex-Im Bank Exposure Fee) and the repayment period of
         greater than seven (7) years.

The following transactions are not subject to the provisions of PR 17:

    1. 	 Credit Guarantee Facilities, regardless of amount;

    2. 	 Short-term insurance, regardless of amount;

    3. 	 Medium-Term Insurance, regardless of amount or term;

    4. 	 Guarantees of up to $20,000,000 (excluding Ex-Im Bank Exposure Fee) and the repayment period of seven
         (7) years or less; and

    5. 	 Guarantees of up to $20,000,000 under the Environmental Exports Program, Transportation Security Export
         Program, or Medical Equipment Initiative, regardless of term.

Requests for Waivers of PR No. 17 may be submitted to the Maritime Administration, a branch of the U.S.
Department of Transportation. Waivers can be obtained for a variety of reasons (e.g. if a U.S. vessel is unavailable or
unsuitable, etc.). If a waiver is obtained, goods shipped on vessels of non-U.S. registry are eligible for financing by
Ex-Im Bank.

Exports shipped by air are not required to be transported on U.S. airlines since the purpose of PR No. 17 is to
maintain a viable merchant marine in the U.S.
• Maritime Adminstration (MARAD) issues waivers
(http://www.marad.dot.gov/ships_shipping_landing_page/cargo_preference/cargo_civilian_agencies/
cargo_pr17_waivers/PR_17_Waivers.htm).

• www.marad.dot.gov
Last updated: February 6, 2009




                                                          29	                      Office of Inspector General
                                                                                        Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                OIG-EV-09-02
                                       Evaluation Report
Ex-Im Policy Handbook, “Shipping Requirements MARAD,” dated June 2005, states:

Policy

The following transactions are required to be shipped exclusively in U.S.-flag vessels in order to
be eligible for Ex-Im Bank support:

         1) Direct loans, regardless of term or amount; and

       2) Guarantee transactions with either
       a) a financed amount in excess of $20 million (excluding Ex-Im Bank’s exposure fee, if
financed), or
       b) a repayment period of greater than seven (7) years.

The following transactions are not required to be shipped exclusively in U.S.-flag vessels in
order to be eligible for Ex-Im Bank support:

         1) Credit Guarantee Facilities, regardless of amount;

         2) Short-term insurance, regardless of amount;

         3) Medium-term insurance, regardless of amount or term;

      4) Guarantees with both a financed amount up to $20 million (excluding Ex-Im Bank’s
exposure fee, if financed) and a repayment period of seven (7) years or less;

       5) Guarantees with a financed amount up to $20 million (excluding Ex-Im Bank’s
exposure fee, if financed) under the Environmental Exports program, the Transportation Security
Export program, or the Medical Equipment initiative, regardless of term.

       6) Exports shipped via non-marine transportation equipment, regardless of registration
and/or ownership of the shipping company or equipment.

Rationale
Public Resolution 17 (“PR 17”), originally adopted in 1934, reflects a sense of Congress that
certain transactions supported by Ex-Im Bank should be subject to U.S.-flag shipping
requirements. Ex-Im Bank and the U.S. Maritime Administration (“MARAD”) have
periodically come to mutual understanding about the proper application of PR 17 to Ex-Im
Bank’s programs, most recently, in October 2004.

The purpose of PR 17 is to support the U.S. strategic objective of maintaining a merchant marine
sufficient to carry a substantial portion of its waterborne foreign commerce, and capable of
service as a naval and military auxiliary in time of war or national emergency.




                                                 30                  Office of Inspector General
                                                                         Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                 OIG-EV-09-02
                                       Evaluation Report
Exception

Requests for Waivers of PR 17 may be submitted to MARAD, a branch of the U.S. Department
of Transportation. Waivers can be obtained for a variety of reasons (e.g. if a U.S. vessel is
unavailable or unsuitable, etc.) If a waiver is obtained, goods shipped on vessels of non-U.S.
registry are eligible for financing by Ex-Im Bank.

The costs of the shipping on foreign vessels may be eligible for financing by Ex-Im Bank if such
costs meet Ex-Im Bank's foreign content rules. Shipment on a Cost, Insurance and Freight or
Cost and Freight basis permits the costs of the foreign freight to be treated as a component of the
cost of the good and, therefore, the shipping costs may be eligible foreign content. If shipments
are made on non-U.S. vessels without a waiver, the goods will not be eligible for Ex-Im Bank
financing.




                                                31                   Office of Inspector General
                                                                          Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                       OIG-EV-09-02
                                       Evaluation Report

Appendix B – U. S. Shipping Requirements – MARAD Internet Disclosures
The Web page of the U.S. Maritime Administration dedicated to U.S.-flag ocean vessel shipping
requirements appears at http://www.marad.dot.gov/ships_shipping_landing_page/
cargo_preference/Cargo_Preference_Landing_Page.htm (August 11, 2009):

Cargo Preference

Welcome to the Maritime Administration's Office of Cargo Preference and Domestic Trade (Office) web
site. The Office's primary focus is to promote and monitor the use of U.S.-flag vessels in the movement
of cargo on international waters. The office is composed of three sections: Agricultural Cargoes, Civilian
Agencies, and Military Cargoes. Information related to these three sections may be accessed by the
appropriate links below. In addition, links to Government and private entities have been provided for
your viewing. However, it should be noted that the Office only accounts for the accuracy of information
on its web site.

To fully understand the movement of cargo, let's first define:

What is Cargo Preference?

The Cargo Preference program works to promote and facilitate a U.S. maritime transportation system that
is accessible and efficient in the movement of goods and people. It oversees the administration of and
compliance with U.S. cargo preference laws and regulations. Those laws require shippers to use U.S.-
flag vessels to transport any government-impelled oceanborne cargoes.

What is Government-impelled cargo?

    •   Government-impelled cargo is cargo that is moving:
    •   Either as a direct result of Federal Government involvement
    •   Or, indirectly through financial sponsorship of a Federal program
    •   Or, in connection with a guarantee provided by the Federal Government

Why Do We Have Cargo Preference?

To provide a revenue base that will retain and encourage a privately owned and operated U.S.-flag
merchant marine because the U.S.-flag merchant marine is a vital resource providing:
    • Essential sealift capability in wartime or other national emergencies
    • A cadre of skilled seafarers available in time of national emergencies
    • Help to protect United States ocean commerce from total foreign domination and control

What percent of cargo is required to be carried on U.S.-flag vessels?
  • Military Cargo = 100% (governed by Military Cargo Preference Act of 1904);
  • Export Import Bank = 100% (governed by Public Resolution 17);
  • Civilian Agencies Cargo = at least 50% (governed by Cargo Preference Act of 1954); and
  • Agricultural Cargoes = at least 75% (governed by the Food Security Act of 1985)

What is the Process?

The process is framed below:

    •   Shipper/cargo interests identify potential cargo move
    •   Fully identify cargo to be shipped to extent possible
    •   Identify timeframe for expected move to extent possible

                                                     32                    Office of Inspector General
                                                                                Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                         OIG-EV-09-02
                                       Evaluation Report
    •	   Shipper must work in advance with potential U.S.-flag carriers and with the Maritime
         Administration, and must solicit U.S.-flag carriers as listed on the following web site: Listing of
         U.S.-Flag Carriers
    •	   Evaluate U.S.-flag carrier responses as to availability and cost
    •	   Book the cargo on a U.S.-flag vessel or contact the Maritime Administration (1- 800-9US-FLAG
         [987-3524]; or (202) 366-4610; Email: cargo.marad@dot.gov) for assistance.
    •	   File required reports (bill of lading) with the Maritime Administration


Related Links
Civilian Agency Cargoes (See below)
Humanitarian Aid Cargoes
Military Cargoes
Domestic Shipping

Contacts
Customer Outreach
Tel: (800) 9US-Flag (987-3524) or (202) 366-4610
Fax: (202) 366-5522
Email: cargo.marad@dot.gov
Contact us at 1-800-9US-FLAG if help is needed in locating U.S.-flag service

Civilian Agencies

The Civilian Agencies team works with all government-impelled cargo that is (1) not covered under the
Military Cargo Preference Act of 1904, essentially Department of Defense (DOD) cargo, or (2) not
covered under the Agricultural Food Aid Program.
The team works with the private sector shippers, suppliers and ocean carriers, as well as applicable
civilian Government Agencies to assist all parties with their compliance with the applicable Federal
legislation on cargo preference.

Legislation

The Cargo Preference Act of 1954 (P.L. 83-664), as amended, applies to all government-impelled cargo
moving in international ocean trade. It requires that at least 50 percent of the gross tonnage of all U.S.
Government-impelled cargo be transported on privately owned, U.S.-flag commercial vessels. The "at
least 50 percent" requirement is applicable to the extent such vessels are available at fair and reasonable
rates, as determined by the Maritime Administration

Government-Impelled Cargo

Government-impelled cargo is defined as cargo that is moving either as a direct result of the U.S.
Government's involvement or indirectly due to financial sponsorship of a Federal program or under a
guarantee provided through the Federal Government.

Compliance Responsibility

It is the responsibility of each Department or Agency to ensure it and its contractors comply with the
Cargo Preference Act of 1954. One of the prime methods to accomplish this is for the Agency or
Department involved to have the appropriate clauses inserted in their program contracts and
documentation.




                                                      33	                    Office of Inspector General
                                                                                  Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                      OIG-EV-09-02
                                       Evaluation Report
Federal Acquisition Regulations (FAR)

The Cargo Preference Act of 1954 is administered by all Departments and Agencies, other than
Department of Defense, under the Federal Acquisition Regulations as set forth in 48 CFR Subpart 47.5
"Ocean Transportation by U.S.-flag Vessels."

Reporting to the Maritime Administration

Regulations require that documentation on all government-impelled cargo moves must be reported to the
Maritime Administration within 20 working days from date of loading on all shipments loaded from the
United States and 30 working days for shipments loaded outside the United States. The reporting
requirement applies whether the cargo moves on a foreign-flag or U.S.-flag vessel. A copy of the ocean
carrier's bill of lading, certified onboard, with rates and charges, is considered sufficient to meet the
reporting requirements.

Export Import Bank - Public Resolution (PR) 17

Certain cargoes generated by the Export Import Bank (Ex-Im Bank) are required by Public Resolution 17
of the 73rd Congress as approved on March 26, 1934, to be carried 100 percent on U.S.-flag vessels.

PR 17 is implemented by the Export Import Bank under regulations set forth in 12 CFR 402.3 "Marine
Transportation and Insurance(a) Marine Transportation."

Loans
All direct loans generated under Export Import Bank financing are to be shipped exclusively on U.S.-flag
vessels under PR 17 Regulations.

Guarantees
Cargo generated under Export Import Bank guarantees are to be shipped exclusively on U.S.-flag vessels
provided the guarantee amount is over $10 million or if the term of the guarantee is over 7 years.

Waivers
Requests for Waivers under PR 17 may be submitted to the Maritime Administration, an agency of the
U.S. Department of Transportation. Waivers can be obtained for a variety of reasons (e.g., if a U.S. vessel
is unavailable or unsuitable). If a waiver is obtained, goods shipped on vessels of non-U.S. registry are
eligible for financing by Ex-Im Bank.

Types of Waivers include:

Statutory - Non availability
General - Special treaty agreement for recipient nation to carry up to 50%
Compensatory - Allows for compensatory make-up shipments where there are extenuating
circumstances
Conditional - Issued primarily for over-dimensional cargo and specialty project cargo, on a long-term
basis but subject to review if conditions change

To obtain more detailed information on the PR 17 program and particularly on the types of waivers listed
above, please visit the PR 17 section of our web page.

PR 17 Page:
(http://www.marad.dot.gov/ships_shipping_landing_page/cargo_preference/cargo_civilian_agencies/carg
o_pr17_waivers/PR_17_Waivers.htm)




                                                    34                    Office of Inspector General
                                                                               Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending                        OIG-EV-09-02
                                       Evaluation Report
PR 17 Waivers

Please use the below links for PR 17 waiver procedures:

PR17 Statement of Policy (http://www.marad.dot.gov/documents/MAR730.PR17.pdf) 

Appendix A: Waiver Request Procedures 

(http://www.marad.dot.gov/documents/MAR730.PR17.APPENDIXA.pdf) 

Appendix B: Waiver Request Required Information 

(http://www.marad.dot.gov/documents/MAR730.PR17.APPENDIX_B.pdf) 

Appendix C: Information and Communication Guide 

(http://www.marad.dot.gov/documents/MAR730.PR17.APPENDIXC.pdf) 

Appendix D: Guideline Rate Policy 

(http://www.marad.dot.gov/documents/MAR730.PR17.APPENDIXD.pdf) 

Appendix E: Definitions and Miscellaneous Information 

(http://www.marad.dot.gov/documents/MAR730.PR17.APPENDIXE.pdf) 

Appendix F: Movement Reports Guide 

(http://www.marad.dot.gov/documents/MAR730.PR17.APPENDIXF.pdf) 


For contact information regarding the Civilian Agencies group, please visit the below link: 

Civilian Agencies - Contacts


Contacts
Customer Outreach
Tel: (800) 9US-Flag (987-3524) or (202) 366-4610
Fax: (202) 366-5522
Email: cargo.marad@dot.gov
Contact us at 1-800-9US-FLAG if help is needed in locating U.S.-flag service




                                                     35                     Office of Inspector General
                                                                                 Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending         OIG-EV-09-02
                                       Evaluation Report

Appendix C – Management Response




                                              36               Office of Inspector General
                                                                  Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending         OIG-EV-09-02
                                       Evaluation Report




                                              37               Office of Inspector General
                                                                  Export-Import Bank of the United States
Actions in Response to the Financial Crisis – Direct Lending         OIG-EV-09-02
                                       Evaluation Report




                                              38               Office of Inspector General
                                                                  Export-Import Bank of the United States
